                     Office of Inspector General
                    Corporation for National and
                             Community Service




    Semiannual Report
      to Congress
October 1, 2007 - March 31, 2008
     Fiscal Year 2008 Semiannual Report No. 1




  1201 New York Avenue, NW, Suite 830
          Washington, DC 20525
        Telephone (202) 606-9390
         Facsimile (202) 606-9397
          Hotline (800) 452-8210
       Website: www.cncsoig.gov
                                                                                                    Table Of Contents


A Message From Inspector General Gerald Walpin.............................................. 1

Audit Section............................................................................................................ 5
      Audit Results ................................................................................................................................ 7
      Grant Audits ................................................................................................................................. 7
      Proposed Management Decisions With Which The OIG Disagreed ....................................... 9
      Disclosure of Government Contractor Audit Findings .......................................................... 10

Investigations Section........................................................................................... 11
      Investigative Results ................................................................................................................. 13
      Significant Cases And Activity ................................................................................................. 13

Review Of Legislation And Regulations .............................................................. 17
      Criminal Background Checks................................................................................................... 19
      Proposed Reauthorization Bill For The Corporation.............................................................. 19
      Rulemaking................................................................................................................................. 19

Statistical And Summary Tables .......................................................................... 21
      I.      Inspector General Act Reporting Requirements........................................................... 23
      II.     Audit List ........................................................................................................................... 24
      III.    Reports With Questioned Costs ..................................................................................... 25
      IV.     Reports With Recommendations That Funds Be Put To Better Use .......................... 26
      V.      Summary of Audits With Overdue Management Decisions......................................... 27
      VI.     Reports Described In Prior Semiannual Reports Without Final Action...................... 28


                              About The Office Of Inspector General
In 1993, Congress created the Corporation for National and Community Service (“Corporation”),
along with this Office of Inspector General (“OIG”), in the National and Community Service Trust Act
(42 U.S.C. §§ 12501-681). Independent of the agency we oversee and led by a presidential
appointee, the OIG conducts audits and investigations of Corporation programs, including
AmeriCorps, Volunteers In Service to America (“VISTA”), the National Civilian Community Corps,
Learn and Serve America, and Senior Corps. The OIG also examines Corporation operations, and
State community service programs that receive and distribute the majority of Corporation grant funds.
Based on the results of our work, and in addition to our audit reports and criminal and civil referrals
based on our investigations, the OIG recommends to the Corporation policies to promote economy
and efficiency.

This semiannual report, as required by the Inspector General Act of 1978, details our work for the first
six months of Fiscal Year 2008. It is being transmitted to the Corporation’s Chief Executive Officer,
Board of Directors, and Members of Congress.
                                                  Inspector General’s Message


           A Message From Inspector General
                              Gerald Walpin
April 30, 2008

I’m pleased to present the Office of Inspector General’s (“OIG”)
Semiannual Report to Congress and share with you the
achievements and challenges my staff and I have experienced
during the period October 1, 2007, through March 31, 2008.

There was good news on two major oversight fronts during this
reporting period. Our audit of the Corporation for National and
Community Service’s (“Corporation”) 2007 Financial Statements
resulted in a clean opinion and, for the first time, found no significant
deficiencies or material weaknesses. This result can be attributed to
efforts by Corporation management to improve its financial reporting,
combined with the diligent work of the OIG Audit Section in ensuring
prompt and full disclosure by the Corporation. Also, our Federal
Information Security Management Act (“FISMA”) Independent
Evaluation found significant improvements in the Corporation’s information technology security
compared to prior OIG evaluations. The enhancements included increased information technology
staffing and security awareness training for all system users, as well as improved monitoring and
testing of Corporation systems. Our report did recommend, however, that the Corporation improve its
oversight of contractors and grantees that store and process information on its behalf.

Overall, our Audit Section issued 13 reports during this period and identified questioned costs totaling
$332,000, as well as $499,000 in taxpayer funds that could be put to better use. We expect those
numbers to increase as a result of our proactive stance in the audit resolution process. Working with
Corporation officials, we are seeking to maximize monetary recoveries resulting from audit findings
and to identify the parties directly responsible for errors and therefore liable for the reimbursement of
misspent funds.

We are also working with the Corporation to expedite the process of audit report resolution and
conclusions, which depend on Corporation decisions based on our audit findings. This process has
too often dragged on beyond the schedule set forth in Corporation policy. The quicker that the Final
Management Decision is made on an OIG audit, the sooner improperly charged funds can be
returned to the Corporation for proper use.

Our Investigations Section opened 17 cases and closed 25 actions, resulting in the recovery of more
than $523,000 in Corporation funds, with work continuing towards the potential recovery of an
additional $2.314 million.

In our ongoing effort to put wrongdoers on notice that there is no such thing as a small fraud or
offense committed against the public’s trust and purse, our investigations led to five successful
criminal prosecutions, three indictments in pending cases, and the debarment of four convicted
persons from participation in Federal grant programs. Three additional OIG referrals for debarment
are awaiting Corporation action.

Our outreach to the prosecutorial community, including the presentation of detailed and compelling
referrals, also continued to bear fruit. Overcoming longstanding arguments that our cases tend to
involve “low-dollar amounts,” we had five cases accepted for prosecution by United States Attorneys
and local jurisdictions, and experienced only one declination.



October 1, 2007 – March 31, 2008                                                                   1
Inspector General’s Message

 Both our audits and investigations noted troubling problems with member eligibility and the recording
 and reporting of member service hours. The causes for these problems range from human error and
 ignorance of regulations to outright fraud. We have expressed our concerns to Corporation
 management and its grantees, stressing that service hour compilation and reporting is the basis for
 determining member eligibility for education awards and accrued interest awards. We are working
 with the Corporation to strengthen oversight, controls, and grantee accountability regarding service
 hours and member eligibility.

 The OIG also has been working with Corporation officials to strengthen the requirement that criminal
 background checks be conducted prior to deployment for all volunteers who will be serving with
 children, the disabled, elderly and other vulnerable persons. During this reporting period, the
 Corporation expanded its background check requirement to cover all Foster Grandparent and Senior
 Companion volunteers, as well as AmeriCorps members, under a new regulation which effectively
 supports our audit work. All members or volunteers who were enrolled after November 23, 2007, and
 who work with vulnerable persons, must undergo pre-service criminal background checks in order to
 be eligible for service and member benefits. The regulation also covers grant-funded program staff.
 Grantees which fail to adhere to the rules face sanctions, including refunding to the Corporation the
 costs of living allowances and education awards given to ineligible members, and stipends and other
 benefits given to volunteers and grant-supported program staff.             In egregious cases of
 noncompliance, grantees can have their grants suspended or withdrawn.

 Our technical staff continues to find ways to help the OIG work smarter and faster. During this
 reporting period, we began work on a Computer Management System that will assist our investigators
 in their efforts to bring wrongdoers to justice. Our information technology staff has also assisted its
 Corporation counterparts in addressing problems with system implementation, shared its expertise on
 detecting employee travel card fraud, and participated in joint efforts to improve database and system
 security and user awareness.

 All of this fine work has been achieved despite increasing budget restraints which I fear could
 eventually jeopardize continuation of the OIG’s excellent record as a steward of taxpayer funds
 invested in National Service. After years of expanding our oversight activity, including the careful
 budgeting of two-year money (which is no longer available) to fulfill and enhance our audit and
 investigative missions, the OIG in Fiscal Year 2008 has had to absorb a 15 percent funding reduction,
 from $6.9 million to $5.828 million.

 This cut has greatly impacted our ability to conduct the contracted random audits of grantees that are
 so essential to our oversight duties and are mandated by Congress. We were able to award
 contracts for 14 grant audits in FY 2007. Several of these audits, along with reports issued under
 contracts initiated during the previous fiscal year, resulted during FY 2007 in the questioning of more
 than $5 million in claimed grant costs and in more than 180 recommendations to improve program
 and Corporation operations.

 For FY 2008, our reduced financial circumstances allow for only three grant audit contracts.

 Our Audit Section is working hard to offset the impact of the shortfall, conducting more staff-produced
 audits and focusing on key issues and on grantees shown to have the highest risk of financial
 irregularities. But there is no way totally to offset the loss of large-scale, contract grant audits which
 play a crucial role in monitoring and improving grantee performance, both through uncovering
 improprieties at the entity being audited, and through the deterrent effect on all grantees from the
 knowledge that the OIG engages in random audits and that any grantee might be next.

 The outlook for effective and proactive OIG oversight is no brighter for FY 2009. Our carefully
 considered request to the Office of Management and Budget (“OMB”) for $7.245 million would have
 allowed for seven contract audits during the coming fiscal year. OMB’s initial passback number for
 OIG was $6.935 million. While we thought that our performance and plans warranted our request in
 full, we decided not to appeal. Unfortunately, in negotiating the Corporation’s independent appeal
 from its passback number, OMB reallocated $423,000 of the amount OMB had initially agreed to

 2                                                             October 1, 2007 – March 31, 2008
                                                  Inspector General’s Message

provide to OIG, and used it to increase the Corporation’s FY 2009 budget allocation, resulting in
OIG’s number being whittled down to $6.512 million by OMB. This amount, if allowed to stand,
would again allow for only three contracted grant audits.

When I questioned this action, OMB officials suggested that the OIG ask Corporation officials for the
disputed $423.000. I rejected this suggested course of action of going hat-in-hand to the Corporation
as totally inconsistent with the OIG’s independence. My staff and I will continue, through this report
and discussions with Congressional staff, to inform Congress of – as we are statutorily required to do
– the adverse impact of the reduced appropriations on the OIG’s ability to perform the duties which
Congress has assigned it.

Finally, while guarding our independence, I have actively pursued efforts during this period to interact
with Corporation officials and employees in an effort to inform them about our role and work, obtain
knowledge of the Corporation’s operations and problems, and engender a cooperative atmosphere.

It is imperative that the OIG demonstrate that, while it acts independently of the Corporation, it is
motivated to assist the Corporation in its service endeavor. For that purpose, I meet every two weeks
separately with the Corporation’s Chief Executive Officer and Chief Financial Officer, permitting with
each a very candid discussion of my views and recommendations on how the Corporation can more
effectively operate and ensure against waste, fraud and abuse, while providing the best service to
needy persons and communities. The relationship is excellent: The Corporation has welcomed our
input, accepted our recommendations with few exceptions and, as to those, we have frankly
discussed our differences without being disagreeable. I applaud the Corporation management in its
overall attitude towards the OIG and its recognition that a candid relationship with the OIG is in the
Corporation’s best interests.

My staff and I also continue to give fraud awareness and audit briefing presentations at Corporation
gatherings across the country. The OIG was also an active participant in the Corporation’s holiday
celebration and charity fund drive, as well as its annual employee recognition event at which, to
inform Corporation staff of the individual talents and qualities that exist in the OIG staff, I presented
our first annual “Inspector General Award” to Senior Budget Analyst Karen Howard.

I am proud of the very able, conscientious, and dedicated OIG staff with whom I am privileged to
serve. I find that morale is magnificent, primarily because they all feel that our office is accomplishing
its purpose: to root out the small number of bad apples in the Corporation’s operations while helping
the vast preponderance of Corporation employees, grantee personnel and volunteers in reaching the
goal of best utilizing every penny Congress has appropriated for National Service.




October 1, 2007 – March 31, 2008                                                                    3
                                                  Audit Section
                   The Office of Inspector General Audit Section is
                   responsible for reviewing the financial, administrative,
                   and programmatic operations of the Corporation for
                   National and Community Service. The Audit Section’s
                   responsibilities include auditing the Corporation’s
                   annual     financial   statements,     assessing     the
                   Corporation’s management controls, reviewing the
                   Corporation’s operations, and auditing individual grants,
                   contracts, and cooperative agreements funded by the
                   Corporation.    All OIG audit reports are issued to
                   Corporation management for its action or information.




October 1, 2007 – March 31, 2008                                        5
                                                                                 Audit Section


Audit Results
 During this reporting period, the OIG Audit Section issued 13 reports. Of note is the Corporation’s
 Fiscal Year 2007 Financial Statements Audit, which included a clean opinion and no significant
 deficiencies or material weaknesses. This is the first time the Financial Statements Audit has had
 such a positive outcome, and the results are due to efforts by Corporation management to improve
 financial reporting and OIG’s Audit Staff, which ensured expeditious and conscientious attention to all
 issues which arose during the audit. Our Fiscal Year 2007 Federal Information Security Management
 Act (“FISMA”) Independent Evaluation found significant improvement over prior years’ studies. We
 found that the Corporation’s Office of Information Technology had hired two information security
 specialists to overhaul policy, train users and system owners, and perform the required monitoring
 and testing of the Corporation’s systems. We also recommended improved oversight of Corporation
 contractors and grantees that store and process information on behalf of the agency to ensure that
 they also meet FISMA system security requirements.

 The grantee audits issued during this period, which focused on the Corporation’s State Commission
 partners and National Direct grantees, questioned $332,000 in claimed costs and recommended that
 more than $499,000 in funds be put to better use. There were 14 audits in process at the end of this
 reporting period.

 As part of the OIG’s effort to demystify and explain the audit process, Audit Section staff gave training
 presentations to the staff of a National Direct grantee and at a Corporation conference for grantee
 employees. We briefed attendees, who are directly responsible for grantee accounting and reporting,
 on the OIG audit process, as well as common audit findings and problems.


Grant Audits
 The Corporation awards AmeriCorps grants to State Commissions that, in turn, issue subgrants to
 local organizations to support their AmeriCorps programs. It also makes grants to National Direct
 grantees, which either subgrant funds to organizations to run programs or operate AmeriCorps
 programs in more than one state. AmeriCorps members serve nonprofits, public agencies and faith-
 based and other community organizations to meet critical needs. Upon successful completion of their
 terms of service, members receive an education award to help finance their higher education or to
 pay off existing student loans.

 Our audit findings this period continued to identify issues with the reporting of AmeriCorps member
 service hours. Of the seven AmeriCorps grant reports issued during this period, five identified
 problems related to member hours. The correct reporting of member service hours is crucial to
 program integrity, as this data is used by the Corporation to determine eligibility for post-service
 education awards, as well as accrued interest awards (interest forbearance on existing student
 loans). Service hour issues we identified included:

 Recording member service hours prior to the signing of the member contract;
 Awarding inappropriate hours; and
 Timesheets that lack proper approval or do not support the number of hours reported to the
 Corporation as served on grantees’ program completion documents.

 Recording Service Hours Prior to Signing the Member Contract

 AmeriCorps applicants become members only after signing a contract; therefore, service hours
 recorded before signing are not eligible to count toward earning an education award. The
 Corporation has itself mandated in its directives and instructions that an applicant does not become
 an AmeriCorps member until enrollment is complete, including signing a member contract. In its
 grant provisions, the Corporation defines an AmeriCorps member as an individual, “Who is enrolled in


 October 1, 2007 – March 31, 2008                                                                   7
Audit Section

 an approved national service position…” Furthermore, AmeriCorps Provisions, Member Enrollment
 Procedures, stipulates, “An individual is enrolled as an AmeriCorps member when all of the following
 have occurred: i. He or she has signed a member contract;…” (emphasis added). In violation of
 these mandates, our audits found that a number of applicants began to record service hours before
 becoming AmeriCorps members. When their pre-contract hours were deducted from their service-
 hour totals, they were found to be ineligible for education awards.

 Awarding Inappropriate Hours

 We found instances in which members were credited with service hours for inappropriate activity,
 including duties outside of the scope of the grant, and crediting members with hours in which no
 service was rendered through a created category of “Holiday Bonus” hours. In some instances,
 grantees appeared to be unaware of the need to comply with laws, regulations and grant
 requirements when managing member service hours. Other grantees appeared to have ignored
 these requirements. Grantees that do not correctly manage service hours jeopardize their members’
 eligibility for education awards.

 Member Timesheet and Service Hour Shortages

 We continued to find instances in which member timesheets were not properly completed and/or did
 not support the hours that were certified by the grantee to the Corporation. Timesheets must be
 signed by the member and his or her supervisor to document that the hours were served.
 AmeriCorps requirements do not specifically address timesheet procedures. It is good business
 practice to initial changes, make corrections without pencil or whiteout, sign and date documents, and
 check the accuracy of hours recorded on timesheets. Without procedures to verify member activities
 or timesheet accuracy, the potential exists that members may receive education awards to which they
 are not entitled. We also continued to find instances in which the hours certified on member exit
 forms were not supported by the number of hours recorded on members’ timesheets.

 The National and Community Service Trust Act of 1993, as well as Corporation regulations, require a
 specific number of hours to be served for a member to be eligible for an education award or accrued
 interest award. AmeriCorps members who serve less than their contractual term of service are
 eligible for an education award only if they leave their program early due to compelling personal
 circumstances, as demonstrated by the member. Our audits identified instances where grantees
 certified pro-rated education awards without documentation of a compelling personal circumstance or
 the circumstance did not meet the type of circumstance allowed by law or regulation. We questioned
 all such awards. One of our audits also found a grantee that had intentionally entered service hours
 on member exit forms that were in excess of the hours actually served and supported by timesheets.
 These findings were turned over to our Investigative Section for its action.

 Hurricane Relief Mission Assignment Costs

 Our audit of Corporation payments to Hurricane Relief Mission Assignment grantees found that:

 The Corporation submitted costs for reimbursement to the Federal Emergency Management Agency
 (“FEMA”) without conducting a complete reconciliation of supporting documentation provided to the
 Corporation by the grantees.
 The Corporation reimbursed one grantee in excess of expenses claimed for mission assignment
 deployments to Texas, Mississippi, and Louisiana.
 The Corporation allowed grantees to charge salaries and living allowances without seeking prior
 approval from FEMA as required, and without obtaining time sheets to support the costs.
 The Corporation’s policy for reviewing and approving mission assignment costs was not
 implemented.

 Overall, we found the Corporation reimbursed sampled grantees $78,076 more than was
 documented, $96,368 more than was requested for reimbursement, and $331,789 in salary costs not
 included in grantee budgets or supported by time and activity reports.


 8                                                           October 1, 2007 – March 31, 2008
                                                                                Audit Section

Proposed Management Decisions With Which The OIG Disagreed

 The OIG did not entirely concur with the Corporation’s audit resolution actions for the following
 reports:

 06-26 – Audit of Grants Awarded to the New Mexico Commission for Community Volunteerism

 The Corporation’s Audit Resolution Policy does not require the OIG to comment or take action on a
 Notice of Final Action (“NFA”). However, we did not agree with information provided in the NFA for
 this report. In its Management Decision, the Corporation suspended a member’s education award
 based on the audit finding that the member did not serve the required number of hours to earn the
 education award.       In the NFA, the Corporation lifted the suspension because it received
 documentation that the member returned to service and made up for the shortage of hours. The
 member was a part-time member and, thus, in accordance with the National and Community Service
 Trust Act, had to complete the service hours during a period of not more than 2 years or a period of
 not more than 3 years if the member was enrolled in school during the service. The member exited
 the program in August 2003 and served the additional hours in September 2006, which is outside of
 the service periods allowed by the Act.

 06-39 - Study of the Corporation’s Internet Use and Management Controls

 The Corporation issued a NFA, dated January 4, 2008 and a follow-up NFA on March 18, 2008.
 Neither the January nor March documents meets the definition of final action in the Corporation’s
 Audit Resolution Policy.

 The March 18 NFA memo states that, “NCCC [National Civilian Community Corps] issued a policy
 (attached) which governs computer usage at NCCC Campuses and which include[s] provisions
 (Section I.2.a) for adhering to Corporation information security policies as specified in CIO-2007-01
 Information Security Program and Policies.” The policy attached to the March 18 memo does not
 have a policy number or an effective date, nor is it signed as approved by a Corporation official. As of
 the end of this reporting period, the policy was still in draft form and not issued.

 The Corporation’s Audit Resolution Policy states that “Final action occurs when all corrective actions
 reported as necessary in the MD [Management Decision] have been completed and verified by the
 responsible management official. The ARM [Audit Resolution Manager] writes a statement of final
 action, which must include documentation that the corrective actions were taken. The purpose of a
 statement of final action is to inform the Audit Follow-up Official and management that corrective
 action is complete. The ARM sends a copy to the IG and places a copy in the official audit file.”
 Because the policy has not been issued, the OIG is listing it as awaiting final action in the audit
 statistics portion of this report.

 07-08 - Audit of Grants Awarded to Public Allies Inc.

 The Corporation’s Audit Resolution Policy 101 does not require the OIG to take action or comment on
 a Final Management Decision (“FMD”). Because we did not consider this decision to meet the
 definition of an FMD, the OIG does not consider it to be “final” and has continued to list this audit as
 awaiting a Management Decision. The document, purported to be the Corporation’s FMD, includes
 notification that, “the Corporation will conduct its own review of the circumstances and determine the
 validity of the hours outside of the audit resolution process. If that review shows that Public Allies
 improperly certified those members as having successfully completed their terms of service, the
 Corporation will evaluate whether (and to what extent) it will establish debts under the guidance
 currently being finalized.”

 Policy 101 defines a management decision as the Corporation’s report of its decisions as to the
 proper resolution of an audit’s findings and recommendations. The word “resolution” by itself means
 “the act of resolving or determining” (Random House College Dictionary, Rev. ed 1968, p. 1123).


 October 1, 2007 – March 31, 2008                                                                  9
Audit Section

 Although, in view of that definition, the addition of the word “final” might be considered redundant, it
 certainly emphasizes that it is “conclusive or decisive: a final decision” (id. at 494).

 Given that the Corporation has advised that it will continue “its own review of circumstances” and only
 then “determine the validity of the hours,” followed by the Corporation then making its decision of the
 amount of debt it will establish in connection with this work, it is readily apparent that no “final”
 decision has been furnished to the OIG.

 07-14 - Report on Agreed-Upon Procedures to Grants Awarded to the Mississippi Commission
 for Volunteer Service

 We disagreed with one item in this Proposed Management Decision (“PMD”). The Corporation
 disallowed the service hours credited to a member while the member performed National Guard duty
 and charged the grantee for $4,386, the amount of the unearned education award used by the
 member. The Corporation also established a potential debt for the $339 portion of the education
 award not yet used by the member. The OIG concurs with the decision to allow the member, who
 thought she had completed the program, to use the full education award. The OIG does not concur
 with establishing a potential debt because there is no mechanism in place to track when or if the
 member accesses the remaining $339. Furthermore, the Corporation should not bear the burden of
 tracking this open item which clearly results from grantee error. The OIG contends that the $339
 should immediately be charged to the grantee, with notice that it is being held liable for this amount,
 subject to the grantee’s right to obtain reimbursement of the $339 amount if, after the period of time
 has expired for the member to use the award (approximately August 2013), the member has not
 obtained that amount from the National Service Trust.

 07-15 - Report on Agreed-Upon Procedures to Grants Awarded to the Kansas Volunteer
 Service Commission

 The OIG disagreed with two items in the Proposed Management Decision (“PMD”). First, it allowed
 one member to perform service hours after our audit found the member had served less than the
 amount required to earn an education award. The member, who served in a full-time position from
 September 2004 through August 2005, was allowed by the grantee (and the Corporation, which
 accepted these additional hours during audit resolution), to return to the program and serve the
 needed additional hours in April 2006. The National and Community Service Trust Act (“Act”) defines
 full-time service as, “[a]n individual performing full-time national service shall agree to participate in
 the program sponsoring the position for not less than 9 months and not more than 1 year.” The
 additional hours served were beyond the service period and not provided for by the Act. It is up to the
 grantee to ensure that its members’ records are correct before the member exits from the program.

 The Corporation’s PMD also suspended the education award for a member whose files did not
 contain proof of citizenship and who did not provide required documentation during audit resolution.
 This member, however, accessed part of the education award. The OIG agrees with the decision that
 the entire amount of the education award should be invalidated, but disagrees with the Corporation’s
 position not to seek to make the National Service Trust fund whole by obtaining refund from the
 grantee for the portion of the Education Award already disbursed.1

Disclosure of Government Contractor Audit Findings

 No contract audits as described in Sec 845, H.R. 4986 National Defense Authorization Act for Fiscal
 Year 2008 were issued during the covered period.




 1
    On 4/25/08 the Corporation issued its Notice of Final Action.   This action will be reflected in the next
 Semiannual Report.


 10                                                            October 1, 2007 – March 31, 2008
                                   Investigations Section
                   The Office of Inspector General Investigations Section
                   is responsible for the detection and investigation of
                   fraud, waste and abuse in Corporation for National and
                   Community Service programs and operations. The
                   Investigations Section carries out these responsibilities
                   by investigating allegations of criminal activity involving
                   the Corporation’s employees, contractors, and grant
                   recipients. Criminal investigations are presented to the
                   U.S. Attorney or, in some cases, the local prosecutor for
                   criminal prosecution and monetary recovery, where the
                   facts uncovered so warrant. Some investigative reports
                   are referred to Corporation management for its
                   administrative action.




October 1, 2007 – March 31, 2008                                        11
                                                                Investigations Section


Investigative Results
 During this reporting period, the OIG Investigations Section opened 17 new cases and closed 25
 cases, including 16 matters with significant findings. Our efforts resulted in the recovery of more than
 $523,000 in taxpayer funds and the potential recovery of more than $2.3 million from persons and
 programs found to have engaged in waste, fraud or abuse of Corporation resources. We also saved
 taxpayers an additional $81,730 in future cost avoidance as a result of our investigations.

 Our investigations also resulted in the successful criminal prosecution of five persons and 17 criminal
 proceedings that are pending trial. Based on information developed through our investigations and
 successful prosecutions, Corporation management debarred four persons from participating in
 Federal procurement and non-procurement programs for periods of up to three years.

 In an effort to prevent future instances of fraud, waste and abuse, the Investigations Section made
 several recommendations to Corporation management that are designed to improve program
 operations and oversight.

 Proactive prevention is also the goal of our Fraud Awareness Program. OIG investigators regularly
 make multimedia training presentations to Corporation employees, program officials and members.
 In addition, investigators conduct unannounced visits to program sites during their official travel.
 These visits assist Corporation management in determining if grantees are adhering to goals and
 objectives, and offer grantees the opportunity to give feedback on how effectively Corporation
 management is supporting their programs.

 The Investigations Section was assisted in its work by 39 calls and e-mails to our Fraud Hotline and
 by referrals from Corporation managers, employees and program participants.

Significant Cases And Activity
 Lack of Program Oversight by Board of Directors, City Administrators and Oversight
 Committees

 The OIG has identified a pattern of failure on the part of members of grantee boards of directors, local
 government administrators, and program executive directors to exercise their responsibilities and
 ensure that the proper checks and balances are in place to protect Federal program funds. In many
 cases, oversight agencies’ only excuse for wrongdoing committed on their watch is that they trusted
 the individual(s) involved in fraud, waste and abuse to properly manage their program(s) and
 safeguard Federal funds. In this environment of unscrutinized trust, a number of program directors
 were able to embezzle funds, misuse program members, and redirect Federal funds to support non-
 Federal activities and other grantee expenses.

 One investigation disclosed that a VISTA supervisor, employed by a city in New Hampshire, falsified
 member timesheets, to record members as still enrolled even after they had left the program. After
 receiving the departed members’ living allowance checks, the supervisor forged the members’ names
 to cash the checks and used more than $21,000 in Federal funds to support his gambling addiction.

 Another case disclosed that a VISTA project director fraudulently drew down his VISTA project
 director’s salary at the full authorized rate of 75 percent of his salary while knowing he was only
 devoting 30 percent of his time directly to the VISTA program. This allowed the director to receive
 $64,615 in Federal program funds to which he was not entitled.

 Both of these criminal acts could have been prevented if oversight boards and agencies had
 conducted periodic reviews of their programs to ensure that the proper checks and balances were in
 place and being followed.



 October 1, 2007 – March 31, 2008                                                                 13
Investigations Section

 Misuse of Program Participants (Displacement)

 We continued to find instances in which program officials misuse members and other program
 participants, including the use of members to supplant employees, thereby using program funds to
 supplement staff salaries and/or allow them to eliminate all or part of the staff compensation
 previously paid from non-Federal funds. Other cases involved the fraudulent enrollment of program
 employees as AmeriCorps/VISTA members, who were then certified by program officials for living
 allowances and education awards to which they were not entitled.

 One investigation disclosed that a VISTA project director violated the Corporation’s non-displacement
 provision when he assigned three VISTA members to staff positions as receptionists and another
 member as a janitor and maintenance person, all duties that directly benefited the grantee. The
 project director also enrolled another individual, who was retiring, into the VISTA program so she
 could continue working as a city court clerk. Additionally, the project director allowed another
 member to serve from his residence, in another state, without supervision so that the member could
 attend college part-time. That member was required to travel to the VISTA site only one day a week
 for service. We also found that the project director paid the member to conduct research projects for
 the director’s benefit while receiving service credit as a VISTA member. These actions resulted in a
 loss to the government of more than $57,000.

 Our limited proactive review of a National Direct grantee showed that AmeriCorps members were
 being misused to fill employee positions, fill in for employees on leave, and perform service outside
 the scope of the grant. This investigation identified the misuse of more than $103,000 in grant funds
 and $33,000 in education awards that were improperly awarded.

 Fraudulent / Unallowable Service Hours

 A number of cases during this reporting period involved program officials who inflated service hours
 for their AmeriCorps members and reported this fraudulent data to the Corporation, thereby falsely
 certifying their members for education awards and living allowances. Members who successfully
 complete 1,700 hours of community service during their one-year terms can receive education
 awards of $4,725 from the Corporation’s taxpayer funded National Service Trust. Timely intervention
 by the OIG in these cases resulted in sizeable recoveries of taxpayer funds and, in several cases,
 prevented losses due to Program Fraud and False Claims.

 For example, a university grantee awarded its 20 AmeriCorps members $94,500 in unearned
 education awards. We found that program officials failed to verify the type of service and hours being
 recorded by its members. Investigation disclosed that, although the grantee participants served at
 different public school locations throughout the State, the members’ timesheets were all identical.
 The OIG questioned the grantee’s procedures and documentation used to certify the members’
 education awards. We found that members were required to meet each month at the grantee’s
 university site for training. At that time the members all prepared timesheets based on an average of
 all the hours they had served and with no notation of the type of service hours performed. The OIG
 investigation showed that numerous unqualified service hours were used toward the members’ totals,
 making them ineligible for education awards.

 Corporation management requested an OIG investigation after it declined to support an OIG audit
 finding that an AmeriCorps grantee improperly awarded an education award to a member. The
 investigation showed that the grantee improperly approved the education award, valued at $4,725, for
 its member by incorrectly counting service hours the member had not properly earned. The grantee
 has agreed to repay the education award.

 Other Investigations

 An OIG investigation disclosed that a Corporation employee violated the Corporation’s ethics policy
 when he received special favors from a prohibited source as a direct benefit due to his position as a
 Government employee. Additionally, the individual falsified his commuter benefit certifications in

 14                                                          October 1, 2007 – March 31, 2008
                                                                             Investigations Section

order to receive $1,200 in Metrochecks, which he sold to several individuals for cash. The employee,
who was arrested by OIG agents, has resigned from Federal employment and is being prosecuted by
the local U.S. Attorney’s office.

A faith-based sub-grantee violated VISTA program policy when its site supervisor solicited funds from
its members, namely a portion of their living allowances, to pay the program’s cost share. As a result
of our investigation, the grantee reimbursed the members and terminated the sub-grantee.

                                              Summary Of Cases
Opened and Closed
  Cases Open at Beginning of Reporting Period                                                    42
  New Cases Opened                                                                               17
  Cases Closed this Period W ith Significant Fin dings                                           16
  Cases Closed this Period W ith No Significant Findings                                            9
  T otal Cases Closed                                                                            25
  Cases Open at End of Reporting Period                                                          34
Referred
  Cases Referred for Prose cution                                                                   4
  Cases Accepted for Prosecution*                                                                   5
  Cases Declined for Prosecution*                                                                   1
  Cases Pending Prosecutorial Review                                                                0
  Cases Pending Adjudication                                                                     17
Recommendations to Management
  Investigative Recomm endations Referred to Managem ent                                         30
  Investigative Recomm endations Pending Managem ent Action this Reporting Period                14
  Investigative Recomm endations Pending Managem ent Action from Pre vious Reporting
                                                                                                    6
  Periods

*This includes cases referred for prosecut ion during the previous reporting period.




October 1, 2007 – March 31, 2008                                                               15
                            Review Of Legislation And
                                         Regulations
                   Section 4(a) of the Inspector General Act directs the
                   Office of Inspector General to review and make
                   recommendations about existing and proposed
                   legislation and regulations relating to the Corporation’s
                   programs and operations. The OIG reviews legislation
                   and regulations to determine their impact on the
                   economy and efficiency of the Corporation’s
                   administration of its programs and operations. It also
                   reviews and makes recommendations on the impact
                   that legislation and regulations may have on efforts to
                   prevent and detect fraud, waste and abuse in
                   Corporation programs and operations. The OIG draws
                   on its experience in audits and investigations as the
                   basis for its recommendations.




October 1, 2007 – March 31, 2008                                       17
                                Review Of Legislation And Regulations


Criminal Background Checks
 Based on the results of its investigations and audits, the OIG recommended in past reporting periods
 that the Corporation strengthen and expand its criminal background check requirements for
 volunteers and program officials who have contact with children, the disabled, the elderly, and other
 vulnerable persons. After considering comments provided by the OIG and the general public on
 several prior draft versions, the Corporation published as final in the Federal Register the National
 Service Criminal History Checks Regulation in August of 2007, and, on November 23, 2007, the
 regulation went into the effect.

 After this date, grantees in the AmeriCorps, Senior Companion, and Foster Grandparent programs
 must check their State’s criminal registry and the National Sex Offender Public Registry (“NSOPR”)
 maintained by the U.S. Department of Justice, for any listings of applicants who enroll as program
 volunteers or are hired as grant-funded employees who would have “recurring access” to children, the
 disabled, and persons age 60 and older. For grant-funded staff and program volunteers involved in
 these programs prior to November 23, 2007, grantees must check only the NSOPR.

 Under the regulation, any individuals found to be on the NSOPR, or who refuse to consent to a State
 criminal registry check, are deemed “unsuitable” for a Corporation-funded position. If an individual is
 found on a State criminal registry, and not the NSOPR, that individual’s eligibility is left for the
 program to decide, but the regulation requires that grantee program officials document consideration
 of the background check results prior to selection.

 The Corporation will take appropriate action against any grantee found to have violated this
 regulation, which can include denial of reimbursement of grant costs, suspending access to grant
 funds, and restricting or denying eligibility for future grants.

 The Corporation has responsibility to apply this requirement for the volunteer programs it directly
 administers: Volunteers in Service to America (“VISTA”) and the National Civilian Community Corps
 (“NCCC”).

Proposed Reauthorization Bill For The Corporation
 In the prior reporting period, the OIG submitted comments to Congress concerning certain sections of
 the Corporation’s proposed reauthorization bill, titled the Generations Invigorating Volunteerism and
 Education Act, or the GIVE Act, which had been introduced in the House of Representatives in June
 2007. The OIG, based on its analysis of the legislation, identified several weaknesses and
 communicated its concerns to the applicable House Committee members and their staffs. We also
 suggested several amendments that the OIG believes would strengthen its ability to deter fraud,
 waste, and abuse.

 On March 6, 2008, the House considered and voted on the GIVE Act and, although a strong majority
 voted for the bill, the measure failed based on the then prevailing House procedural rule which
 required a two-thirds affirmative vote for passage. We will continue monitoring and report on any
 subsequent Congressional action.

Rulemaking
 On November 19, 2007, the Corporations published for public comment proposed amendments to the
 current AmeriCorps regulations with the stated intent to streamline and improve grant operations for
 AmeriCorps grantees. The comment period closed January 18, 2008, and the Corporation is
 presently considering the merits of the submitted comments before submitting a new draft for
 approval from the Office of Management and Budget. Before its publication, the OIG had internally
 reviewed and provided comment to the Corporation on those particular amendments that, in the


 October 1, 2007 – March 31, 2008                                                                19
                               Review Of Legislation And Regulations

OIG’s view, would weaken an OIG auditor’s ability to identify lack of compliance with Corporation
rules. We also called attention to several matters that appeared to conflict with current law. The rule
ultimately issued for public comment was amended to meet all but one of our concerns, that being,
the ramifications of broadening eligibility for AmeriCorps members who failed to complete their first
term. The Corporation and the OIG are engaged in an ongoing discussion of that matter.




20                                                          October 1, 2007 – March 31, 2008
                                             Statistical And
                                           Summary Tables
                   The statistical and summary tables in this section are
                   submitted in compliance with the requirements
                   enumerated in the Inspector General Act.




October 1, 2007 – March 31, 2008                                    21
                                                                                        Tables

I.      Inspector General Act Reporting Requirements
 This table cross-references the reporting requirements prescribed by the Inspector General Act of
 1978, as amended, to the specific pages in the report where they are addressed.

     Section                               Requirement                                 Page
      4 (a)(2)     Review of legislation and regulations                                17

      5 (a)(1)     Significant problems, abuses, and deficiencies related to the     Throughout
                   administration of Corporation programs and operations

      5 (a)(2)     Recommendations with respect to significant problems, abuses
                   and deficiencies found in the administration of Corporation       Throughout
                   programs and operations

      5 (a)(3)     Prior significant recommendations on which corrective action         28
                   has not been completed
      5 (a)(4)     Matters referred to prosecutorial authorities                        15

      5 (a)(5)     Summary of instances where information was refused                None this
                                                                                      period
      5 (a)(6)     List of audit reports by subject matter showing dollar value of      24
                   questioned costs, unsupported costs and the dollar value of
                   recommendations that funds be put to better use

      5 (a)(7)     Summary of significant reports                                    Throughout

      5 (a)(8)     Statistical table showing number of reports and dollar value of      25
                   questioned costs

      5 (a)(9)     Statistical table showing number of reports and dollar value of      26
                   recommendations that funds be put to better use

      5 (a)(10)    Summary of each audit issued before this reporting period for        27
                   which no management decision was made by end of reporting
                   period

      5 (a)(11)    Significant revised management decisions                          None this
                                                                                      period

      5 (a)(12)    Significant management decisions with which the Inspector             9
                   General disagrees




 October 1, 2007 – March 31, 2008                                                             23
Tables

II.            Audit List

                                                    October 1, 2007-March 31, 2008
      Report                                                               Dollars          Dollars       Funds Put To Better
                                       Report Name
      Number                                                              Questioned     Unsupported             Use
                                                                                       (Dollars in thousands)
      08-01     Audit of the Corporation for National and Community           $0               $0                $0
                Service’s Fiscal Year 2007 Financial Statements

      08-02     Audit of the Corporation for National and Community           N/A            N/A                 N/A
                Service’s Fiscal Year 2007 National Service Trust
                Schedules
      08-03     Agreed-Upon Procedures ("AUP") Review of Grants               $57            $0                  $43
                Awarded to the Georgia Commission for Service and
                Volunteerism
      08-04     AUP Review of the Education Award Program Grant               $42            $0                  $98
                Awarded to United States Veterans Initiative
      08-05     Audit of the Allowability of Hurricane Relief Mission         $0             $0                  $96
                Assignment Costs Claimed by Corporation Grantees

      08-06     Fiscal Year 2007 FISMA Independent Evaluation                 N/A            N/A                 N/A

      08-07     AUP Review of Grants Awarded to the American Red Cross        $10            $0                  $0
                of Metro New Jersey
      08-08     AUP Review of Grants Awarded to ServeDC                       $71            $0                  $52

      08-09     Follow-up Review of Corporation Policy and Controls for       $0             $0                  $0
                Refilling Vacated AmeriCorps Member Positions/Slots
      08-10     AUP Review of Grants Awarded to the North Dakota              $9             $0                  $0
                Workforce Development Council – State Commission on
                National and Community Service

      08-13     AUP Review of Grants Awarded to the West Virgnia              $29            $0                  $0
                Commission for National and Community Service

      08-14     AUP Review of Grants Awarded to ServeMinnesota                $57            $23                 $10

      08-15     AUP Review of Grants Awarded to the Montana Office of         $58            $24                $199
                Community Service
                                          TOTAL                              $332           $48                 $499
  Inspector General Act [5(a)(6)]




  24                                                                       October 1, 2007 – March 31, 2008
                                                                                       Tables

III.          Reports With Questioned Costs


                                                                     Federal Costs

                    Report Category                    Number Questioned          Unsupported
                                                                      (Dollars in thousands)
       A. Reports for which no management decision       11         $4,797                     $3,943
          had been made by the commencement of
          this reporting period

       B. Reports issued during the reporting period     8           $332                           $48

   C. Total Reports (A + B)                              19         $5,128                     $3,991

   D. Reports for which a management decision            3             $54                          $35
      was made during the reporting period

          I. Value of disallowed costs                                 $44                          $25

          II. Value of costs not disallowed                            $10                          $10

       E. Reports for which no management decision       16         $5,074                     $3,956
          had been made at the end of the reporting
          period


       F. Reports with questioned costs for which no     8          $4,743                     $3,908
          management decision or proposed
          management decision was made within six
          months of issuance
  Inspector General Act [5(a)(8)]




  October 1, 2007 – March 31, 2008                                                             25
Tables

IV.         Reports With Recommendations That Funds
            Be Put To Better Use

                    Report Category                   Number        Dollar Value
                                                               (Dollars in thousands)
      A. Reports for which no management decision       6                $397
         had been made by the commencement of
         this reporting period

      B. Reports issued during the reporting period     6                $499

      C. Total Reports                                  12               $896

      D. Reports for which a management decision        1                 $5
         was made during the reporting period

         i. Value of recommendations agreed to by                         $5
         management

         ii. Value of recommendations not agreed to                       $0
         by management

      E. Reports for which no management decision       11               $891
         had been made by the end of the reporting
         period



      F. Reports with recommendations that funds        5                $392
         be put to better use for which no
         management decision or proposed
         management decision was made within six
         months of issuance
 Inspector General Act [5(a)(9)]




 26                                                          October 1, 2007 – March 31, 2008
                                                                                                                         Tables

V.            Summary of Audits With Overdue Management Decisions



                                                                                           Mgmt.             Status at End of
     Report                                                  Federal Dollars              Decision           Reporting Period
     Number                     Title                         Questioned                    Due                 (03/31/08)
                                                            (Dollars in thousands)

                                                                                                     The Corporation accepted the
               Audit of Grants Awarded to Puerto
                                                                                                     OIG non-concurrence with the
               Rico State Commission on
      06-05                                                          $155                   08/13/06 PMD and agreed to review
               Community Service and Social
                                                                                                     additional documentation
               Action Subgrantees
                                                                                                     before submitting the Final MD

               Audit of Kentucky Department for                                                      A Proposed Management
      06-31    Mental Health and Mental                              $276                   01/18/07 Decision has not been
               Retardation Services FGP                                                              provided to the OIG
                                                                                                     The OIG did not agree that the
               Audit of Grants Awarded to Public                                                     Corporation's Management
      07-08                                                           $73                   07/19/07
               Allies                                                                                Decision, dated 2/10/08, is final
                                                                                                     (Note 1)
               Agreed-Upon Procedures For
                                                                                                     A Proposed Management
               Grants Awarded to the OneStar
      07-18                                                         $3,525                  12/28/07 Decision has not been
               (Texas) National Service
                                                                                                     provided to the OIG
               Commission, Inc
               Agreed-Upon Procedures for Grants                                                     The OIG did not concur with
      07-15    Awarded to the Kansas Volunteer                        $18                   01/16/08 the Proposed Management
               Commission                                                                            Decision (Note 2)
               Agreed-Upon Procedures for Grants                                                     The OIG did not concur with
      07-14    Awarded to the Mississippi                             $36                   01/27/08 the Proposed Management
               Commission for Volunteer Service                                                      Decision
               Agreed-Upon Procedures Review of
                                                                                                     A Proposed Management
               Senior Corps Grants Awarded to
      07-17                                                          $156                   02/27/08 Decision has not been
               Council on Aging of Volusia County,
                                                                                                     provided to the OIG
               FL
                                                                                                     A Proposed Management
               Audit of Grant Awarded to United
      07-21                                                          $503                   03/10/08 Decision has not been
               States Veterans Initiative, Inc
                                                                                                     provided to the OIG
                                Total                               $4,743
 Note 1. In its Final Management Decision the Corporation stated that it would conduct a review "…outside of the audit resolution process".
 We do not agree that this meets the definition of a Final Management Decision. On 4/25/08 the Corporation issued its Notice of Final
 Action. This action will be reflected in the next Semiannual Report.
 Note 2. In its 4/25/08 Final Management Decision, the Corporation agreed to change one item to meet OIG's objection to the Corporation's
 Proposed Management Decision. This action will be reflected in the next Semiannual Report.
 Inspector General Act [5(a)(10)]




 October 1, 2007 – March 31, 2008                                                                                               27
Tables

VI.        Reports Described In Prior Semiannual Reports
           Without Final Action


      Report                                                           Date         Final
      Number                               Title                      Issued     Action Due
       06-05    Audit of Grants Awarded to the Puerto Rico State      02/13/06    02/13/07
                Commission on Community Service and Social
                Action
       06-31    Audit of Kentucky Department for Mental Health and    07/18/06    07/18/07
                Mental Retardation Services Foster Grandparent
                Program
       06-39    Study of Corporation for National and Community       8/1/2006    8/1/2007
                Service's Internet Use and Management Controls*

                Agreed-Upon Procedures Review of the                  09/25/06    09/25/07
       06-43    Corporation's FEMA Hurricane Relief Mission
                Assignment Process
                Audit of Grants Awarded to the Maryland Governor's    10/04/06    10/04/07
       07-05
                Office on Service and Volunteerism
                Agreed-Upon Procedures Engagement Kansas Big          10/12/06    10/12/07
       07-06
                Brothers Big Sisters, Inc.
                Audit of Grant Awarded to Home Instruction for        11/22/06    11/02/07
       07-10
                Parents of Preschool Youngsters (HIPPY), USA
                Audit of Grants Awarded to Public Allies, Inc. (see   01/19/07    01/19/08
       07-08
                Note 1 on table V)
  * See Page 9 for information on this Final Action.
 Inspector General Act [5(a)(3)]




 28                                                          October 1, 2007 – March 31, 2008
         CORPORATION FOR NATIONAL AND
              COMMUNITY SERVICE

 OFFICE OF INSPECTOR GENERAL

                           Hotline

                                     We Want You to
                                     Report Fraud, Waste
                                     and Abuse!




                   ♦    All information is confidential.

                   ♦    You may remain anonymous.


            1-800-452-8210
Contact us by e-mail:                                Visit our web page:
hotline@cncsoig.gov                                   www.cncsoig.gov

                                Or write:

                          OIG HOTLINE
Corporation for National and Community Service
     1201 New York Avenue NW, Suite 830
             Washington, DC 20525
